<html>
<title> - EXAMINING THE FEDERAL AIR MARSHAL SERVICE AND ITS READINESS TO MEET THE EVOLVING THREAT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











EXAMINING THE FEDERAL AIR MARSHAL SERVICE AND ITS READINESS TO MEET THE 
                            EVOLVING THREAT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2015

                               __________

                           Serial No. 114-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                  __________
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-917 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               WITNESSES
                                Panel I

Mr. Roderick ``Rod'' Allison, Assistant Administrator, Office of 
  Law Enforcement, Federal Air Marshal Service, Transportation 
  Security Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Panel II

Mr. Tim Canoll, President, Air Line Pilots Association:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

 
EXAMINING THE FEDERAL AIR MARSHAL SERVICE AND ITS READINESS TO MEET THE 
                            EVOLVING THREAT

                              ----------                              


                        Thursday, July 16, 2015

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Carter, Walker, Ratcliffe, 
Rice, and Payne.
    Mr. Katko. I would like to welcome everyone to today's 
hearing on TSA's Federal Air Marshal Service. The subcommittee 
is meeting today to examine the Federal Air Marshal Service and 
its readiness to meet the evolving threat. Before we begin, I 
would like to express my support for Administrator Neffenger, 
who assumed his new position at TSA's administration last week. 
I had the opportunity to sit down with Mr. Neffenger, and I am 
hopeful that he can provide steady leadership that is badly 
needed at TSA in order to bring TSA into a new and more 
effective chapter. While it is clear that he will have his work 
cut out for him, I believe that his experience in the United 
States Coast Guard would be a valuable asset to TSA, and I look 
forward to working with him and hearing his plans to fix the 
agency.
    Since the beginning of the 114th Congress, this 
subcommittee has aggressively examined several issues related 
to TSA's operations, policies, and procedures in order to 
ensure that TSA is fulfilling its mission of keeping the 
traveling public safe. Today, we will examine what many have 
called the last line of defense against potential terror 
attacks in the sky; that is, the Federal Air Marshal Service. 
The Federal Air Marshal Service was significantly expanded in 
the wake of the terror attacks of September 11, 2001. The 
outcome of 9/11 could have been very different if we had 
Federal Air Marshals on those planes. However, we also have to 
keep in mind that the threat to aviation security has evolved 
dramatically over the last 14 years.
    The terrorists who want to do us harm are constantly 
adapting their tactics, and we need to make sure we are not 
protecting ourselves against yesterday's threat and ignoring 
the threats of tomorrow. For example, the threat of an IED, or 
improvised explosive device, being detonated aboard an aircraft 
is very real. Is the Federal Air Marshal capable of preventing 
an IED from being detonated, or should we reallocate some of 
the hundreds of millions of taxpayer dollars that are 
appropriated every year for the Federal Air Marshal Service 
towards better intelligence efforts, or security measures for 
other soft targets, such as unsecured areas of airports? The 
purpose of today's hearing is to discuss if the Federal Air 
Marshal Service, in its current form, is demonstrating an 
appropriate risk-based approach to securing our Nation's 
aviation system from a terrorist attack. It is not clear to me 
whether the service and the strategy for resource allocation 
have kept pace with the new threats, and that is why I look 
forward to hearing from Mr. Allison today.
    Additionally, I remain concerned that continued public 
allegations of employee misconduct and abuse within the Federal 
Air Marshal Service have served to hurt public perception and 
confidence in the Air Marshals and have the concomitant effect 
of decimating employee morale.
    Today, we plan to examine several key areas of this program 
to determine its effectiveness and whether there is anything 
Congress can do to assist and assure the continued safety and 
security of the traveling public.
    We all share the same goal, and as such, it is our duty to 
ensure that we constantly reexamine what we are doing and why 
we are doing it in order to yield better security enhancements 
and be more intelligence-driven.
    At today's hearing, we are very fortunate to have the 
assistant administrator of TSA's Office of Law Enforcement, Mr. 
Rod Allison, to address these issues and to discuss what tools 
are necessary to improve efficiency and security. On our second 
panel, we will have Captain Tim Conoll from the Airline Pilots 
Association to discuss the Federal Flight Deck Officer Program 
and its coordination with the Federal Air Marshal Service.
    I look forward to hearing the testimony from both of our 
witnesses, and having a meaningful dialogue on how to make 
improvements to the Federal Air Marshal Service as we work 
together to counter threats facing U.S. aviation sector.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                             July 16, 2015
    I would like to welcome everyone to today's hearing on TSA's 
Federal Air Marshal Service. The subcommittee is meeting today to 
examine the Federal Air Marshal Service and its readiness to meet the 
evolving threat.
    Before we begin, I would like to express my support for 
Administrator Neffenger, who assumed his new position as TSA's 
administrator last week. I had the opportunity to sit down with 
Administrator Neffenger, and I am hopeful that he can provide steady 
leadership in order to bring TSA into a new and more effective chapter. 
While it is clear that he will have his work cut out for him, I believe 
that his experience in the United States Coast Guard will be a valuable 
asset to TSA and I look forward to working with him and hearing his 
views on how to fix this agency at our full committee hearing later 
this month.
    Since the beginning of the 114th Congress this subcommittee has 
aggressively examined several issues related to TSA's operations, 
policies, and procedures in order to ensure that TSA is fulfilling its 
mission of keeping the traveling public safe. Today, we will examine 
what many have called ``the last line of defense'' against potential 
terror attacks in the sky: Federal Air Marshals.
    The Federal Air Marshal Service was significantly expanded in the 
wake of the terror attacks of September 11, 2001. The outcome of 9/11 
could have been very different if we had Federal Air Marshals on those 
planes. However, we also have to keep in mind that the threat to 
aviation security has evolved dramatically over the last 14 years. The 
terrorists are constantly adapting their tactics, and we need to make 
sure we are not protecting ourselves against yesterday's threat and 
ignoring the threats of tomorrow.
    For example, the threat of an IED being detonated aboard an 
aircraft is very real. Is a Federal Air Marshal capable of preventing 
an IED from being detonated? Or should we reallocate some of the 
hundreds of millions of taxpayer dollars that are appropriated every 
year for the Federal Air Marshal Service towards better intelligence 
efforts, or security measures for other soft targets such as the 
unsecure areas of the airport.
    The purpose of today's hearing is to discuss if the Federal Air 
Marshal Service, in its current form, is demonstrating a risk-based 
approach to securing our Nation's aviation system from a terrorist 
attack.
    It is not clear to me whether the Service and its strategy for 
resource allocation have kept pace with new threats. Additionally, I 
remain concerned that continued public allegations of employee 
misconduct and abuse within the Federal Air Marshal Service have served 
to hurt public perception of air marshals and decimate employee morale.
    Today we plan to examine several key areas of this program to 
determine its effectiveness and whether there is anything Congress can 
do to assist and ensure the continued safety and security of the 
traveling public. We all share the same goal, and as such, it is our 
duty to ensure that we constantly reexamine what we are doing and why 
we are doing it in order to yield better security enhancements and be 
more intelligence-driven.
    At today's hearing we have the assistant administrator for TSA's 
Office of Law Enforcement, Mr. Rod Alliston, to address these issues 
and discuss what tools are necessary to improve efficiency and 
security, and on our second panel we will have Captain Tim Canoll, from 
the Air Line Pilots Association to discuss the Federal Flight Deck 
Officer Program and its coordination with the Federal Air Marshal 
Service. I look forward to hearing the testimony from both of our 
witnesses and having a meaningful dialogue on how to make improvements 
to the Federal Air Marshal Service, as we work together to counter 
threats facing the U.S. aviation sector.
    I now recognize the Ranking Member of the subcommittee, the 
gentlewoman from New York, Ms. Rice, for an opening statement.

    Mr. Katko. I now recognize the Ranking Member to the 
subcommittee, the esteemed gentlewoman from New York, Miss 
Rice, for an opening statement.
    Miss Rice. Thank you, Mr. Chairman. Thank you for convening 
this hearing. I understand this is actually the first time 
since 2012 that a panel in this committee has discussed the 
Federal Aviation Marshal Service. So it is clearly important 
that we do so, and I want to thank our witnesses for their 
participation today. Prior to September 11, the Federal Air 
Marshal Service consisted of only 33 full-time sky Marshals. 
The 9/11 attacks made it clear that we needed a much greater 
presence on commercial aircrafts to counter the threat of 
individuals attempting to gain access to a cockpit. In the wake 
of 9/11, the Federal Air Marshal Service was rapidly expanded 
through the Aviation Transportation Security Act of 2002.
    Six hundred Marshals were hired, trained, and activated 
within a month, and thousands more were activated in the months 
that followed. The Federal Air Marshal Service, as well as 
Federal Flight Deck Officers, serves as one of the last lines 
of defense for both domestic and international flights. We know 
that the threats against our country, particularly against our 
aviation sector, are constantly evolving and have only 
increased in the years since 
9/11. We must ensure that our Air Marshal Service is also 
evolving and maintaining the strength needed to counter these 
threats and keep passengers safe. That is why we are here 
today. There are a number of issues of concern with the current 
state of the Federal Air Marshal Service. First and foremost, 
the dwindling ranks of the service. There has not been a new 
Federal Air Marshal Service class in 4 years. When you couple 
this with high attrition and poor retention rates, it is clear 
that the organization is shrinking dramatically, and it also 
raises serious questions about workforce morale. As the 
workforce is dwindling, so is the number of Federal Air Marshal 
field offices. Last year, there were 26 Nation-wide. Currently, 
there are 22, and there are two more scheduled to close in 
2016, which will bring us down to 20 field offices within the 
next year.
    Now, I understand that these closures are determined by 
complex risk analyses and by the fact that there tends to be 
fluctuation in which areas around the country are commercial 
aviation hubs. But we need to be certain that none of this 
compromises security on commercial flights, and we need to 
ensure that Marshals are transitioning to openings in other 
field offices as efficiently as possible.
    I am very eager to hear from Assistant Administrator 
Allison about the details of these closures and what measures 
are in place to help with this transition, as well as details 
of what outreach efforts are being undertaken to improve 
workforce morale. I also look forward to hearing, in greater 
detail, from Captain Canoll about other layers of security 
aboard planes, such as the Federal Flight Deck Officers and 
enhanced barriers. The selfless pilots who volunteer for this 
program are subjected to intense training and prepare 
themselves for dangerous threats on commercial aircrafts. I am 
eager to learn more about the level of training they receive 
and how their regimen is evolving to counter current security 
threats.
    Mr. Chairman, thank you, again, for your leadership and for 
convening this hearing. I look forward to a productive dialogue 
with our witnesses and colleagues, and I yield back the balance 
of my time.
    [The statement of Ranking Member Rice follows:]
               Statement of Ranking Member Kathleen Rice
                             July 16, 2015
    Thank you, Mr. Chairman. And thank you for convening this hearing.
    I understand that this is the first time since 2012 that a panel in 
this committee has discussed the Federal Aviation Marshal Service--so 
it's clearly important that we do so, and I want to thank our witnesses 
for their participation today.
    Prior to September 11, the Federal Air Marshal Service consisted of 
only 33 full-time sky Marshals.
    The 9/11 attacks made it clear that we needed a much greater 
presence on commercial aircrafts to counter the threat of individuals 
attempting to gain access to a cockpit.
    In the wake of 9/11, the Federal Air Marshal Service was rapidly 
expanded through the Aviation Transportation Security Act of 2002. Six 
hundred Marshals were hired, trained, and activated within a month, and 
thousands more were activated in the months that followed.
    The Federal Air Marshal Service, as well as Federal Flight Deck 
Officers, serves as one of the last lines of defense for both domestic 
and international flights. We know that the threats against our 
country--particularly against our aviation sector--are constantly 
evolving, and have only increased in the years since 9/11. We must 
ensure that our Air Marshal Service is also evolving and maintaining 
the strength needed to counter these threats and keep passengers safe.
    That's why we're here today.
    There are a number of concerning issues with the current state of 
the Federal Air Marshal Service.
    First and foremost, the dwindling ranks of the Service. There has 
not been a new Federal Air Marshal Service class in 4 years.
    When you couple this with high attrition and poor retention rates, 
it's clear that the organization is shrinking dramatically--and it also 
raises serious questions about workforce morale.
    And as the workforce is dwindling, so is the number of Federal Air 
Marshals field offices.
    Last year, there were 26 Nation-wide. Currently, there are 22, with 
two more scheduled to close in 2016--which will bring us down to 20 
field offices within the next year.
    I understand that these closures are determined by complex risk 
analyses, and by the fact that there tends to be fluctuation in which 
areas around the country are commercial aviation hubs.
    But we need to be certain that none of this compromises security on 
commercial flights, and we need to ensure that marshals are 
transitioning to openings in other field offices as efficiently as 
possible.
    I'm eager to hear from Assistant Administrator Allison about the 
details of these closures and what measures are in place to help with 
this transition, as well as details of what outreach efforts are being 
undertaken to improve workforce morale.
    I also look forward to hearing greater detail from Captain Cannol 
about other layers of security aboard planes, such as Federal Flight 
Deck Officers and enhanced barriers.
    The selfless pilots who volunteer for this program are subjected to 
intense training and prepare themselves to dangerous threats on 
commercial aircrafts. I am eager to learn more about the level of 
training they receive and how their regimen is evolving to counter 
current security threats.
    Mr. Chairman, thank you again for convening this hearing. I look 
forward to a productive dialogue with our witnesses and colleagues, and 
I yield back the balance of my time.

    Mr. Katko. Thank you, Miss Rice. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    We are pleased to have a distinguished witness before us 
today on this important topic. Let me remind the witness that 
the entire written statements will appear in the record.
    Our first witness is Mr. Roderick ``Rod'' Allison, who, in 
May 2014, began serving as the assistant administrator for the 
Office of Law Enforcement and director of the Federal Air 
Marshal Service.
    Mr. Allison was the TSA assistant administrator for the 
Office of Inspection and supervisory Air Marshal in charge of 
the Washington field office prior to taking his current 
position. I would like to also note that I met with Mr. Allison 
yesterday in advance of his testimony here today, and if he 
displays the same candid demeanor that he did yesterday, I 
think we are going to have a very productive hearing. So I look 
forward to hearing from you, sir.
    I now recognize you to testify for your 5 minutes, sir.

STATEMENT OF RODERICK ``ROD'' ALLISON, ASSISTANT ADMINISTRATOR, 
    OFFICE OF LAW ENFORCEMENT, FEDERAL AIR MARSHAL SERVICE, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Allison. Good morning, Chairman Katko, Ranking Member 
Rice, and Members of the subcommittee. I appreciate the 
opportunity to appear before you today to testify about the 
Federal Air Marshal Service, or what is known as FAMS. Our 
mission in FAMS is to detect, deter, and defeat any criminal or 
terrorist activities against our transportation systems. We 
perform our core mission by deploying Federal Air Marshals on 
United States-flagged aircraft throughout the world 365 days a 
year, utilizing a comprehensive concept of operations that 
aligns with TSA's risk-based security strategy. FAMS are law 
enforcement officers who receive specialized training to 
prepare them for the challenges associated with a very 
difficult working environment. FAMS operate at 30,000 feet in a 
restricted space and have no back-up to call upon.
    The FAMS is unique in its ability to remain flexible and to 
rapidly deploy hundreds of law enforcement officers in response 
to specific evolving threats within the transportation domain 
around the world. In consultation with the Department of 
Homeland Security, FAMS recently completed an updated concept 
of operations for mission deployments addressing risk 
mitigation and incorporating randomness and unpredictability. 
While the focus remains on the highest-risk flights, the new 
CONOPS ensures adversary uncertainty and deterrence through 
potential deployment on any U.S. carrier flight.
    A risk-by-flight methodology is under development, which 
will include FAM mission planning based upon passenger travel 
patterns, assessed passenger risk and consideration for airport 
locations with known vulnerabilities. In addition to deploying 
FAMS on-board aircraft, FAMS also assigns Visible Intermodal 
Prevention and Response, or our VIPR teams, at a variety of 
locations to augment the visible presence of law enforcement 
and security personnel in all modes of transportation.
    VIPR teams can be made up of several different components 
of TSA, each working closely with Federal, State, and local law 
enforcement partners and transportation stakeholders to ensure 
the safety and security of our transportation systems.
    The Federal Air Marshal Service is made up of dedicated 
professionals whose job demands that they demonstrate the 
highest level of preparedness and integrity. Since becoming 
FAMS director in June 2014, I have implemented several 
workforce engagement initiatives to enhance communication, and 
to promote the highest level of professionalism within the 
workforce. Over the past year, my deputy director and I have 
conducted nearly 50 office visits and town hall sessions across 
the country.
    I have personally visited each headquarters site on 
multiple occasions, and 19 out of the 22 field offices to meet 
with personnel all over the organization to communicate 
expectations, address concerns, and answer questions. I 
recently launched a director's award which honors annually one 
non-supervisor employee at each office who demonstrates the 
highest level of integrity, and serves as a role model to their 
colleagues. I have also initiated a thank you campaign wherein 
hundreds of employees have received letters of commendation for 
noteworthy accomplishments. These initiatives provide me with a 
great opportunity to demonstrate my deep appreciation to the 
workforce and highlight the good work of our employees.
    Additionally, FAMS continues to provide our workforce with 
the resources and support they need to carry out their mission. 
As part of this effort, FAMS maintains a robust system of both 
medical, including mandatory physicals and psychological 
assistance programs, which are readily available to the 
workforce and their families.
    The FAMS medical program section is staffed with a 
physician and other full-time medical professionals who are 
available to FAMS personnel at any time 24 hours a day, 7 days 
a week, 365 days a year.
    FAMS recognizes the value of these programs for our 
workforce, and as our mission is demanding both physically and 
mentally, we will continue to make these and other employee 
assistance programs available to our personnel.
    FAMS recently completed a staffing and field office 
assessment review in order to maximize organizational 
effectiveness and efficiency, and to ensure FAMS are located in 
offices that are positioned in a risk-based manner to cover the 
most critical flights. As a result of this assessment, 6 field 
offices have either closed or will be closing within the next 
year. Personnel from these affected offices were reassigned to 
our most critical offices, which service the highest-risk 
flights. The Federal Air Marshal Service is a strong 
counterterrorism element in the security TSA provides to the 
traveling public.
    We take our mission seriously, and our workforce is 
dedicated to preventing and disrupting both criminal and 
terrorist acts on-board aircraft and within the transportation 
domain.
    I appreciate this committee's partnership in our effort and 
your support for our critical mission. Thank you for the 
opportunity to appear before you today, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Allison follows:]
             Prepared Statement of Roderick ``Rod'' Allison
                             July 16, 2015
    Good morning Chairman Katko, Ranking Member Rice, and Members of 
the subcommittee. Thank you for the opportunity to testify today. The 
mission of the Federal Air Marshal Service (FAMS) is to detect, deter, 
and defeat criminal and terrorist activities that target our Nation's 
transportation systems. As director of the FAMS, I am responsible for 
leading the thousands of men and women who have taken an oath to 
prevent and disrupt acts of terrorism within the transportation domain. 
We perform our core mission by deploying Federal Air Marshals on United 
States-flagged aircraft throughout the world, 365 days a year, 
utilizing a comprehensive Concept of Operations that aligns with TSA's 
Risk-Based Security (RBS) strategy. In addition to deploying the 
Federal Air Marshals on-board aircraft, FAMS assigns Visible Intermodal 
Prevention and Response (VIPR) teams at a variety of locations to 
augment the visible presence of law enforcement and security personnel 
in all modes of transportation.
    FAMS is comprised of law enforcement officers who receive 
specialized initial and recurrent training to prepare them for the 
challenges associated with a very unique operating environment. In 
addition to their initial training, all Federal Air Marshals receive 20 
training days per year and are required to maintain a high firearms 
proficiency standard. As you know, Federal Air Marshals in the aviation 
sector operate at 30,000 feet, in tight quarters, remain vigilant, and 
are prepared to react to a wide spectrum of criminal and terrorist 
events and activities.
    The Federal Air Marshals are an integral part of RBS where they 
serve within a matrix of security layers, and often as a last line of 
defense. Federal Air Marshals serve as a deterrent to those with intent 
to do harm, and their presence helps to sustain the confidence of the 
traveling public. The FAMS is unique in its flexibility and ability to 
re-deploy thousands of law enforcement officers rapidly in response to 
specific threats or incidents in the transportation domain. For 
example, following the 2006 U.K. liquid explosives plot and the 
December 25, 2009, failed bombing of Northwest Flight 253 bound for 
Detroit by Umar Farouk Abdulmutallab, Federal Air Marshals were 
immediately deployed in response to the evolving threats. FAMS also 
assisted in security efforts during the evacuation of U.S. citizens 
from the island of Cyprus following the unrest in Lebanon in July 2006. 
As a risk-based organization, FAMS is responsive to current 
intelligence, threats, and vulnerabilities. Mission coverage goals are 
adjusted continually in response to emerging and evolving threats. 
Additionally, Federal Air Marshals have leveraged their basic emergency 
response training to intervene successfully in thousands of in-flight 
medical emergencies and non-terrorist incidents involving unruly 
passengers.
                     concept of operations (conops)
    In consultation with the Department of Homeland Security, FAMS 
recently completed an updated CONOPS for mission deployment addressing 
risk mitigation and incorporating randomness and unpredictability. 
While the focus remains on the highest-risk flights, the new CONOPS 
ensures adversary uncertainty and deterrence through potential 
deployment on any domestic flight. A ``risk-by-flight'' methodology is 
currently under development which incorporates mission planning based 
upon passenger travel patterns, assessed passenger risk, and 
consideration for locations with known vulnerabilities.
           visible intermodal prevention and response (vipr)
    The FAMS manages the VIPR Program, which consists of teams of 
Federal Air Marshals, Behavioral Detection Officers, Transportation 
Security Specialists--Explosives, Transportation Security Inspectors 
and Canine teams who work closely with Federal, State, and local law 
enforcement partners and stakeholders in the aviation and surface 
transportation sectors.
    Surface transportation offers an attractive target for our 
adversaries, as we learned from the subway bombings in Madrid in 2004 
and London in 2005. Through a joint planning process, TSA works with 
local law enforcement to plan operations that leverage existing 
resources to provide enhanced detection capabilities and a visible 
deterrent to terrorist activity. In 2014, VIPR teams conducted 
approximately 14,000 operations at transportation venues Nation-wide, 
to include National Security Special Events (NSSE) and Special Event 
Assessment Rating (SEAR) activities such as the Super Bowl, NCAA Final 
Four, and State of the Union. The 2014 NFL Super Bowl in the greater 
New York City area presented a unique set of challenges based upon the 
heavy reliance on mass transit to attend all the events surrounding the 
big game. Our VIPR teams successfully worked side by side with our 
local, State, and Federal law enforcement partners to ensure the safety 
and security of the traveling public attending that week's festivities.
                          workforce engagement
    TSA sets high standards for the code of conduct for all of our 
employees, especially law enforcement personnel. Professionalism and 
integrity on and off duty is expected of all Federal Air Marshals. 
Since becoming the FAMS director in June 2014, I have implemented 
several initiatives to promote the highest level of integrity, 
professionalism, and accountability. Over the past year, my deputy and 
I have embarked upon an aggressive workforce engagement campaign, 
convening nearly 50 office visits and ``Town Hall'' sessions across the 
country. I have personally visited the headquarters sites and most 
field offices. We meet with personnel at all levels of the organization 
to communicate expectations, gauge concerns, and answer questions. I 
have applied a multi-pronged approach to ensure robust communications 
and feedback through all levels of the organization.
    During these site visits, I discuss my appreciation to the 
workforce and specifically address the on-going ``Thank You Campaign'', 
wherein hundreds of employees have received letters of commendation for 
noteworthy accomplishments. I also recently implemented a ``Director's 
Award,'' which honors one non-supervisory employee at each office 
location who demonstrates the highest level of integrity and serves as 
a role model to their colleagues. We have also launched a new product 
on the FAMS internal website home page entitled ``In the Spotlight'' 
where employees are recognized for civic related activities and 
accomplishments.
    Additionally, FAMS has a number of programs to provide our work 
force with the resources and support they need to carry out their 
mission. As part of our efforts, FAMS maintains a robust system of both 
medical, including mandatory physicals, and psychological assistance 
programs which are available to the workforce and their families. The 
FAMS Medical Programs Section is staffed with a physician and other 
full-time medical professionals who are available to FAMS personnel 24/
7 and upon request. FAMS also has a Critical Incident Response Unit 
that provides guidance and support to assist FAMS employees and their 
families in the event of a critical or traumatic incident. This unit 
provides guidance and support to assist FAMS, along with other offices 
within TSA, in the event of a critical or traumatic incident. For 
example, shortly after the LAX shooting, members of the FAMS Los 
Angeles Field Office mobilized to offer assistance to all affected.
    Further, FAMS contracts with a professional counseling team with 
licensed mental health professionals that provides services to 
employees that are free and confidential. Finally, FAMS employees can 
contact TSA's Employee Assistance Program (EAP), which provides short-
term counseling and resources, and referral services at no cost to 
employees and family members.
                         workforce realignment
    In order to maximize organizational effectiveness and efficiency, 
FAMS completed a staffing and field office assessment to ensure that 
FAMs are located in offices that are positioned in a risk-based manner 
to cover the most critical flights. As a result, six offices will be 
closed: Cincinnati, Cleveland, Phoenix, Pittsburgh, San Diego, and 
Tampa. As of today, we have closed four of these offices, with the 
final two slated to close next summer. Personnel were reassigned to our 
most critical offices, namely those offices which serviced the highest-
risk flights. Despite these closures, Office of Law Enforcement (OLE)/
FAMS will continue to maintain a presence in these locations. OLE/FAMS 
will maintain an assistant Federal security director for law 
enforcement at each location and FAMs assigned to the FBI's Joint 
Terrorism Task Force will not be affected. While personnel will be 
reassigned to other offices, these closures will not adversely impact 
our ability to maintain coverage on-board flights at these airport 
locations. Additionally, though VIPR team personnel will be transferred 
to other offices, operations involving specific events and 
infrastructure will remain unaffected.
                               conclusion
    FAMS is a strong counterterrorism layer in the security TSA 
provides to the traveling public. We take our mission seriously and our 
workforce is dedicated to preventing and disrupting acts of terror on-
board aircraft. I appreciate this committee's partnership in our 
efforts and support for this critical mission.
    Thank you for the opportunity to appear before you today and I will 
be happy to answer any questions.

    Mr. Katko. That is pretty remarkable. I don't think anybody 
has ever spoken within 2 seconds of the 5-minute limit. That is 
pretty good. If that is part of your organizational skills, we 
are impressed, sir. I want to thank you for your testimony. We 
appreciate you being here, Mr. Allison, and we know your time 
is valuable. I now recognize myself for 5 minutes to ask 
questions.
    You know, let's get right into it. With reinforced cockpit 
doors like we have now on airplanes, and we have more flight 
deck officers, which are officers--pilots that are armed, and 
passenger information collected via the secure flight, is the 
need for the Federal Air Marshal Service the same, or is it 
declining?
    Mr. Allison. Well, Mr. Chairman, I will tell you, if I 
didn't believe in this mission, I wouldn't be in this job. All 
those things you cited are improvements that have happened 
within the aviation security business over the years. As we 
like to say, you know, no one layer stands on its own, right? 
So we do need to have Federal Marshals on these flights. We do 
need to have that partnership with the FFDO program. We need to 
continue to work on the improvements on the hardened cockpit 
doors, as you and I discussed yesterday, the secondary 
barriers. So those things will be on-going. As we get to a 
place where we are satisfied that those things are in place, 
that sufficiently mitigate the threats that we see, we will 
start looking elsewhere where we can be effective and where we 
can add value and make a difference.
    Mr. Katko. What additional changes do you feel the Air 
Marshal Service could implement to become more efficient and 
risk--and better risk-based?
    Mr. Allison. I mentioned in my opening statement, Mr. 
Chairman, that we are looking at a model of a risk-by-flight. 
So with that, I like--maybe it sounds a little pretentious, but 
I like to think we are pretty good at being risk-based as we 
are today. But we are going to really examine critical 
infrastructure, our flights flying over critical 
infrastructure, in addition to the populous areas, in addition 
to using that passenger information from secure flight, known 
travel patterns, KSTs, known and suspected terrorists. So we 
are moving to a model where we can better utilize the 
information that is available to make better judgments about 
how we assign our personnel.
    Mr. Katko. Is there any new initiatives that you are 
planning for the current fiscal year? The upcoming fiscal year?
    Mr. Allison. With respect to operations?
    Mr. Katko. Yes.
    Mr. Allison. We recently amended our concept of operations, 
that was started by the former director. But I was able to get 
that over the goal line. But in that construct, what we did was 
we really took a look at how we were deploying our Federal Air 
Marshals. At the advent of 9/11, there were a number of things 
that we were required to do. For instance, mandatory flight 
coverage levels at DCA, looking at long-haul flights, looking 
at particular areas of the country and giving them certain 
priority levels. We have actually readjusted that, and I think 
it is going to make us more productive, more unpredictable, and 
we will be able to be seen and have Air Marshals on flights 
where we otherwise would not have coverage. I will be happy to 
share that concept of operation with you and the Ranking Member 
at your convenience.
    Mr. Katko. I appreciate that.
    Now, you mentioned, I think you called it a secondary door 
they are talking about. That is, obviously, something that some 
groups have been interested in with respect to additional 
airline safety. So when a pilot is coming out of the cockpit 
for that temporary moment the door is opened, to have some sort 
of barrier there. I know now on flights they have a cart turned 
sideways, and the flight attendant is standing behind the cart 
so someone isn't able to get right up to the cockpit door right 
away. Is a secondary door, in your opinion, based on your 
expertise, something that should be considered, or is it 
necessary, based on your knowledge and experience?
    Mr. Allison. I think it is absolutely necessary to take a 
look at it and see if it works, if it is effective, if it is 
something that is going to result in less resources and more 
protection and security for the flight crews. As you stated, 
the flight crew does bring out the cart and block the entrance 
for the pilot to use the facilities. So we are working, and 
have been for a number of years with Boeing, the FAA. I was 
just informed yesterday that there are some foreign partners 
that have an interest in looking at this as well, so that work 
will continue.
    Mr. Katko. One of the things we touched on yesterday, there 
has been a concern within the industry about the Federal Air 
Marshal Service booking flights close to the time that the 
plane is set to take off within a 24-hour period, for example. 
Oftentimes, if there is--first class is full, someone, if you 
are ever sitting in first class, they get bumped out of first 
class; they can't even tell them why. That leads to some 
consternation and also leads to some difficulty explaining to 
try and attempt to deal with a passenger who paid for a first-
class ticket, is no longer able to sit in first class. First of 
all, have you looked into this issue since we spoke?
    Mr. Allison. I did look into the issue of deadheading, and 
I will get to that in a second. But specifically to your 
question, Mr. Chairman, these young men and women who fly these 
flights, they are having to submit their schedules and their 
availabilities 60 days in advance, so 2 months in advance is 
when we start the scheduling process. As I related to you 
yesterday, sir, I know more than anybody that what we do is 
necessary. It is important. But at the same time, it does 
impact the industry to some degree. Over the course, I think it 
was 2014, June 2014 to June 2015, the amount of economic impact 
of the Federal Marshals was .11 percent of the total revenue in 
the industry. Be that as it may, as you can sense, we are 
sensitive to that, and we make all attempts to minimize the 
disruption to their business.
    Mr. Katko. Okay. I guess going forward, I would ask, you 
know, perhaps it might be advisable to reach out to some of the 
airlines, and, at least, examine the issue and make sure you 
are both on the same page with that. Because we hear something 
a little different from them. But the bottom line is we want to 
make sure that the disruption to passenger traffic is as 
minimal as possible, but also allows you to fulfill your duties 
going forward. But I guess planning, planning, planning is the 
best we can do. So to the extent you can reach out to them, I 
think it would be advisable to do so.
    Mr. Allison. Absolutely, I will make sure I do that.
    Mr. Katko. I appreciate that, sir.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentlelady from New York, Miss Rice, for any 
questions she may have.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Allison, if you were given a wish list of improvements 
that you could make to your agency, what would they be?
    Mr. Allison. The first thing I would put on that wish list 
in big, bold letters is the ability to hire. As I go across the 
country, and I talk to Federal Air Marshals, the No. 1 question 
I get is: What is the future of the organization? You know, not 
being able to hire has a detrimental effect on the workforce. 
There is a sort-of feeling of dying on the vine. You know, if I 
was able to hire, I would be able to open up and allow 
employees to move to places where they would want to go, 
conceivably. The workforce is getting older. All right? A lot 
of people that we hired in the beginning of 9/11, as I told the 
Chairman yesterday, they are going to be walking out the door 
2020, 2021. So, you know, I asked the Chairman for his support 
in working through this problem to get to where do we want to 
be in 5 years? So that is the No. 1 issue that I would put on 
my wish list in big, bold letters.
    I think the other thing that the men and women of the 
Federal Air Marshal Service would say is this is a tough, tough 
job. All of us have flown, and we have crossed time zones. We 
know how tough that is. These men and women do this job, and 
they are exceptional men and women. I just can't tell you how 
proud I am of the work that they do. It is tough to recognize 
them for that. I think over the years, the constant reporting 
of the misconduct, which is a very small percentage of our 
workforce--and I would submit to you, Congresswoman, that every 
organization has misconduct. I am not condoning it, because I 
will tell you, I am zero tolerance when it comes to that. 
Everybody has an internal affairs division, and they are all 
busy. But the challenge of leadership is to make sure that our 
people know what the standards are, know what the expectations 
are, and know what they are going to be held to. That starts 
with me on down throughout the organization.
    So to your point, the second, you know, highlighted bullet 
would be a little bit more support and recognition for the 
tough job that they do.
    Miss Rice. So two other questions. You started a thank you 
campaign to help improve morale. Can you explain what that is?
    Mr. Allison. Sure. When you think about the challenge of 
security work, any security profession, you do your job, 
nothing happens, and, you know, it is tough to recognize people 
for that sort of activity, right? So what we really did was 
take a hard look at what our people are doing. We get reports 
every day of Federal Air Marshals that are providing medical 
assistance to people on aircraft that are in distress, whether 
it is oxygen, IVs, putting on devices, stopping at roadside 
traffic accidents on their way to the airport or from the 
airport, assisting local police with arrests in the airports, 
train stations, bus stations, so there are a whole lot of 
activities that really, you know, have an indirect effect on 
the core mission, but are commendable activities nonetheless.
    So what my staff does is, as these reports come in, they 
comb those reports and we--it is very simple. We write a thank 
you letter. I understand you were involved in this activity 
yesterday, thank you. I think so far, I have kind-of lost 
count, since--maybe 600 since I have been over the year; 200-
something this year alone. So we think it is a low-cost way to 
show appreciation to our workforce or just a pat on the back.
    Miss Rice. Yeah. I couldn't agree more.
    How do you make the determination as to what offices are 
going to be closed? I know there are two upcoming. What 
analysis do you do to come to the conclusion that it is okay to 
close this office and redirect people to another one?
    Mr. Allison. So, Congresswoman, I believe maybe 2 years 
ago, if not 3, the former director embarked upon a study where 
they looked at the flights that were in those offices that were 
identified for closure. I think it is important to note that 
the airline industry has undergone major consolidations over 
the years. In one particular area, Pittsburgh, Cleveland, 
Cincinnati, several airlines pulled out of those airports. So 
that had a lot to do with identifying are these resources here, 
would they be better utilized putting them to some of the 
larger offices that we have? There were 10 offices that were 
identified where those people were allowed to go. That was the 
primary focus of--or the metric that was used to determine 
quality of flights, to be very candid. That is the reason.
    Miss Rice. Well, thank you for your service and for the 
service of all of your employees. I yield back my back my time. 
Thank you, Mr. Chairman.
    Mr. Katko. Thank you, Miss Rice. I want to echo Miss Rice's 
sentiments about thanking you and your employees for the great 
job you do. I was speaking with Miss Rice before the hearing 
began, and both of us are willing to come out to your offices 
to provide a little bit additional support and kind-of help 
boost morale a little bit. We will be doing that in the near 
future with you.
    Mr. Allison. I appreciate that. I think that would be most 
appreciated. I think you would enjoy it.
    Mr. Katko. Well, good.
    The Chair would recognize other Members of the committee 
for questions which they may ask the witness. In accordance 
with the committee's rules and practices, I plan to recognize 
Members who are present at the start of the hearing by 
seniority in the subcommittee. Those coming in later will be 
recognized in the order which I receive.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Allison, thank you 
for being here.
    I have got just a couple of questions. I am just inquiring. 
Okay? I am not going to be confrontational. I don't want you to 
be defensive, but I need to understand some things.
    First of all, thank you for what you do. Thank all of your 
members and your staff for what they do. This is important. We 
understand that, and we appreciate that. But it is my 
understanding that many countries assess a fee or a tax, if you 
will, on airlines whenever we have a passenger from the United 
States landing in their country. Is that true?
    You have to understand, I have not traveled much. In fact, 
I said before in this committee yesterday that I have only been 
to two countries in my life, and that is one more than I wanted 
to go to. So I am asking you, is that true?
    Mr. Allison. Mr. Congressman, I am not aware of that.
    Mr. Carter. Well, that is the way I understand it. What I 
understand is that the airlines are having to absorb this fee 
because the Federal Air Marshals don't compensate for it. So 
whenever they are flying over there, it is my understanding 
that the airlines are having to absorb this fee, and that is 
just something I need to understand and need to inquire about.
    Mr. Allison. I will provide you a follow-up on that point.
    Mr. Carter. Thank you. Thank you. I want to follow up on a 
line of questions that I believe the Chairman of the 
subcommittee, Mr. Katko, had addressed earlier, and that is 
about the Air Marshals flying first class. It is my 
understanding, and I have heard some horror stories, to be 
quite honest with you. In fact, I heard a story that has been 
communicated to us where there were like six Air Marshals 
flying first class, and there were another group on a competing 
airline, the flight got canceled, and they came over, and they 
wanted the first-class seats also, and all of a sudden the 
whole first-class cabin was taken up by Air Marshals. That just 
doesn't seem right.
    Can you provide to us how often your employees are flying 
first class, and how often they are flying coach? I will be 
quite honest with you, I flew first class one time, and that 
was really not by choice. That was the only seat they had 
available. I was with my family, and my three sons got to 
fighting about who was going to sit in first class, and finally 
I resolved it by sitting there myself. So that was the only 
reason I was really flying first class. I am just wondering why 
the Air Marshals got to fly first class.
    Mr. Allison. Well, Mr. Congressman, I can't elaborate in an 
open hearing about our tactical seating. I will be happy to 
discuss with you in private and answer any question you may 
have. I would assure you that, as I stated before, our impact 
upon the aviation industry, we view it as a partnership. You 
know, as a matter of practice, those things are managed to a 
very high degree. I look forward to having a private 
conversation with you in a closed setting, and I will give you 
the full plethora of information with regard to where we sit 
and why we sit there.
    Mr. Carter. Okay. I certainly respect that. I understand 
there are probably situations where you would. But it just 
seems to me like you wouldn't need the whole first-class cabin.
    Mr. Allison. I would agree with you.
    Mr. Carter. I suspect you would.
    I can certainly understand if this is sensitive or not, but 
it would appear to me that it would be, especially in light of 
the fact that we have made so much progress on the doors, the 
cabin doors now, to where they are secure that the real target 
is going to be around the wings and the fuel tanks. That is 
where we really ought to have the agents, or the Marshals. Am I 
correct in that?
    Mr. Allison. Sir, when you get to the notion of, as you are 
referring, the evolving threat, as the Chairman stated, IEDs, 
every day in TSA we start our day with intelligence briefings. 
I don't have to tell you gentlemen, the threat to this country 
has never been higher. Certainly, argument debatable, I would 
agree with you, has the threat evolved or have our adversaries 
chosen additional methods of which to cause us harm, which 
doesn't mean that the old ones went away and we can't ignore 
them. Now, we are not sitting around waiting for the last 
threat. We are watching for that, but we are also looking for 
the new threat. You know, we have got our eye on that, and we 
are looking at IEDs on aircrafts and the potential to do so.
    I will tell you, Mr. Congressman, Christmas day 2009, I was 
at home preparing dinner with my mother. I got the call, this 
guy who tried to light his underwear on fire. Now, we weren't 
on that flight, but we were on the one just before that. So if 
there is an incident on an aircraft, I am very confident our 
folks are going to respond regardless of where they are on that 
aircraft. So I guess to your point is, wherever that incident 
is, we are going to respond to it.
    Mr. Carter. Okay. Well, you see where I am going with this. 
I mean, I give you the benefit of the doubt, but just, please, 
let's make sure we are taking care of this. Again, thank you 
for your work and for what you do.
    Mr. Allison. You are welcome, Mr. Congressman.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Carter.
    The Chair now recognizes Mr. Walker from North Carolina for 
questioning for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Allison, thank you for being here with us today. It is 
a privilege to get to put a face with the title there.
    My question is, as a matter of policy, the Federal Air 
Marshals fly out of an airport approximate to their home, and 
are there instances where a Federal Air Marshal needs to fly 
out for an off-duty commute before an assignment begins? Can 
you give me a little backdrop on how that lays out?
    Mr. Allison. Sure. The Chairman mentioned that to me 
yesterday, and I had not heard that. We are actively looking to 
the industry engagement office to sort-of get some more 
information. So as a matter of policy, that is not something we 
do. That is not something that we have ever done. As long as I 
am director, that is not something we will do. I don't see a 
need to do that.
    Mr. Walker. But you are looking into that as far as the 
reports that we hear? You are taking a look at that?
    Mr. Allison. Yes, sir.
    Mr. Walker. Thank you.
    Mr. Allison. So I just want you to understand, I have been 
pretty busy the last year, but my strategy going forward is to 
really start looking out and having some more conversations 
with the airline industry, airline CEOs, you know, some of the 
Law Enforcement Association groups and things like that. So 
more discussion, but I am going to look into that and make sure 
that if that is happening, it needs to be reported. That is 
misuse of the position, and it shouldn't be happening.
    Mr. Walker. It does need to be reported. In your position, 
you know, a lot of us come from different backgrounds; 
ministry, law, business. A general manager doesn't necessarily 
know how to do every specific position underneath the scope of 
the country. But as an overseer, his job is to kind-of, sort-of 
pay attention to what the details are. Sometimes I wonder, are 
you so busy with the day-to-day? Are you able to get caught up 
as far as all the different things going on, or are you 
yourself overwhelmed with specific titles or things or specific 
tasks that you should be accomplishing?
    Mr. Allison. I assure you, Mr. Congressman, I am not 
overwhelmed, because I have a great staff. If I need to be--
immerse myself in the day-to-day business every day, I have the 
wrong staff. I have got the right staff.
    Mr. Walker. Okay.
    Mr. Allison. I am not immersed in the day-to-day business 
to the degree that I am blinded; I don't see things that I need 
to be focused on. You know, as I stated in my opening 
statement, getting out in the field and talking to the 
employees and the managers about what is going on and using the 
employee advisory groups and listening to, you know, people 
outside of the organization, it gives you that perspective.
    Mr. Walker. I appreciate the confidence in which you answer 
that. I know we can't probably talk about this in an open 
setting, but to be curious as far as percentages and flights at 
some point, I would like to follow up with you.
    I have got just a minute or 2 here. What sort of physical 
and psychological evaluations are conducted to maintain the 
Federal Air Marshal suitability? You feel good about that, the 
well-being for the mission? You talked a little bit about 
burnout, stress, stretching out budgets, and those kind of 
things. You feel good about that the guys are in a good 
condition to be doing the job?
    Mr. Allison. That is a constant monitoring. That is one of 
those things where you shoot for perfection, you aim for 
perfection knowing you will never get there. So we do have a 
mandatory physical for every--myself included, for all the 
credentialed personnel. Once a year you get a physical. In that 
physical, there is psychological screening. You have to answer 
a series of questions about, you know, what you have 
experienced or maybe not experienced. Physical fitness, you 
know, we have a pretty good physical fitness program. You know, 
it is not mandatory. It is mandatory to participate, but, you 
know, we can't remove people from Federal service because they 
can't do 20 push-ups. That is what I am getting at. It is 
mandatory participation, and we provide a number of exercises 
and alternative exercises for people to participate. But to the 
root of your question, are we watching our personnel? Do we 
give them avenues for assistance? Absolutely. Absolutely.
    Mr. Walker. If we have the 20 push-up rule in Congress, we 
might be pretty thinned out pretty quick ourselves.
    The last thing I want to touch on. I am married to a trauma 
nurse practitioner, flies out on helicopters some, works in the 
trauma 1. But if on the way home there was an accident or scene 
or situation, she would be the first one out of the car jumping 
in. My question is this: For guys who may be flying off-duty, 
is there a protocol to react if there was something? Can you 
tell me a little bit about that? Because I know once they fly 
to a certain place, like the other pilots or things, make their 
hours have expired. Could you talk about what the protocol is 
if they are off-duty, yet there is a situation arises?
    Mr. Allison. Sure. Mr. Congressman, I will assure you that 
any of our personnel that sees something in their presence, 
they are going to react, and they do all the time.
    Mr. Walker. Okay.
    Mr. Allison. That happens quite a bit. That is sort of the 
impetus behind the thank-you letters. Right?
    Mr. Walker. Great. Mr. Allison, thank you.
    My time has expired. I yield back, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Walker.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne, for 5 minutes of questions.
    Mr. Payne. Oh, my goodness. Timing is everything. Good 
morning. So, Mr. Allison, could you detail for us your thoughts 
on the future of the Federal Air Marshal Service?
    Mr. Allison. How do I see the future of the Federal Air 
Marshal Service?
    Mr. Payne. Yes.
    Mr. Allison. What I see, Mr. Congressman, is a viable 
counterterrorism force that supports the counterterrorism 
efforts of this Government. We may be smaller and leaner. You 
know what, budget dollars are tight, and we have got to do our 
part. But I will assure you that the threats that we face now, 
unfortunately, they may be with us for a little bit. You know, 
we are constantly looking for ways to make sure that we are 
adding that value that I was talking about, assessing the 
threats, watching the intelligence, you know, making sure that 
we are operating in line with the U.S. Government 
counterterrorism efforts, you know, led by the FBI, looking at 
the secure flight data, as we had talked about earlier, and 
making sure that we are well-positioned within the aviation 
industry to thwart any threats along with the FFDO program.
    It was mentioned about the office closures. Where we are 
now, we are situated with 80 percent of the traveling public is 
where we are aligned as we speak today. So that is a pretty 
powerful sort of statement.
    Mr. Payne. Okay. You know, when the committee last held a 
hearing on FAMS and the 112th Congress examined allegations of 
discrimination, cronyism, you know, among other issues within 
the workforce, you know, detail for us the state of the 
workforce today, what the practices were--what practices were 
put in place to address these concerns, and also what is the 
attrition and retention rate of the Federal Air Marshals?
    Mr. Allison. So as we sit here today, the attrition rate is 
6 percent. It was a 5 in the beginning of the year, end of last 
year, so it is 6 percent at this point. To your point about the 
IG report, I testified at that hearing. I was deputy director 
back then. It is important to note that it was allegations of 
discrimination and retaliation, which they found none, but they 
did highlight that there was a rift between the workforce and 
the leadership. A lot of that came from how we were stood up. 
The workforce was hired, and then a leadership was brought in. 
I will tell you today, as we sit here, 92 percent of the 
leadership is from within the rank-and-file of the 
organization. The Congress, the Ranking Member, talked about 
pre-9/11. I was a FAM in 1998, went to the same training these 
young men and women went to. I left and came back, but that 
was, in large degree, part of the issue between the workforce 
and the leadership.
    So what do we do about it? Clearly, there was a need to 
enhance the communication within the organization, provide more 
transparency, more opportunities with respect to ground-based 
assignments, more transparency and objectiveness to the 
promotion process.
    So there were a number of workforce initiatives that were 
put in place right after that. Then since my return, you know, 
I have sort-of upped the ante, so to speak, on some of the 
communication efforts and making sure that I am more visible to 
the workforce. I was sharing with the Chairman that I am out 
once a month, and I will continue to do that.
    Mr. Payne. Thank you. So you are saying that these 
allegations of discrimination and what have you were unfounded?
    Mr. Allison. Well, the IG said they had no evidence of 
widespread discrimination. But they did highlight, I believe, 
the perception of that was sort-of prevalent.
    Mr. Payne. Okay. Let's see, well, I only have 25 seconds 
left, so in the interest of time, I will stay within the rules 
and yield back.
    Mr. Katko. Thank you, Mr. Payne. The Chairman now 
recognizes the gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate you 
convening this subcommittee hearing so we can continue to do 
the work that we have been focused on here in terms of making 
our airports and airlines safer.
    Director Allison, I thank you for being here today. One of 
the roles that we have here, obviously, is to make sure that 
our airlines and airports are as safe as possible. At a cost of 
nearly $800 million a year to sustain the Federal Air Marshal 
Service, we obviously need to look closely at its viability, 
its efficiency, and its effectiveness. So I appreciate you 
being here to answer some questions.
    As you know, we have had some gaps and issues with respect 
to airport and airline security here at this subcommittee. We 
have convened hearings. We had former acting TSA administrator 
here, Melvin Carraway, back here in April talking about the 
improper screening of employees at airports. Back in June, we 
had the inspector general here talking about the fact that TSA 
failed to identify 73 airline employees that had links to 
terrorism. So we all know that we have had some issues with TSA 
security that we need to address, and so I want to focus on 
your agency efforts here or the Air Marshal Service issues. So 
one of the things that happened back in April was there were 
reports that an on-duty Air Marshal left a loaded pistol in a 
bathroom at the Newark Liberty International Airport. So I want 
to ask you about that incident in particular.
    Can you give us some background about your investigation 
into that particular incident?
    Mr. Allison. Sure. So whenever there is an allegation of 
misconduct, that allegation is referred to the Office of 
Inspection. They do the investigation. The former administrator 
had set up an Office of Professional Responsibility that 
administers discipline. So that incident, like any other 
incident, was investigated and referred to the Office of 
Professional Responsibility, and I think there is discipline 
pending.
    Mr. Ratcliffe. So it begs the question, though, that one 
became publicized because of how the pistol was recovered, 
but--and to the extent that you are able to answer this 
question, are there less public breaches of protocol like that 
that have occurred, and has it been a particular problem for 
you?
    Mr. Allison. You have mistakes, and you have misconduct. 
You have, as you stated, you know, breaches of protocols. So 
the number of incidents that we have to deal with in that 
realm, it happens. As I told the Chairman yesterday, people who 
are engaged in this activity, they don't confess, they don't 
wear T-shirts. You have got to find them. And what we do is 
emphasize the rules, emphasize the standards, and we help 
people who make mistakes and deal with people who engage in 
egregious misconduct. So you don't get, you know, an infinite 
number of bites at the apple. Right? So I think this young man, 
unfortunately, made a mistake, and it is probably going to cost 
him.
    Mr. Ratcliffe. Well, Director, I am, by way of background, 
a former terrorism prosecutor myself, and so I certainly 
understand the threat that that issue poses to our country 
generally and specifically to air safety. Obviously, I believe 
in the core mission. But I would like to understand, if it is 
possible for you to talk about, when we look at the cost of 
maintaining this service, can you give us any idea how many on-
board threats have been minimized or ameliorated by the Federal 
Air Marshal Service?
    Mr. Allison. Sure. So, Mr. Congressman, let me answer your 
question this way: In the aftermath of 9/11, when those 
buildings were smoldering in the District of Columbia, 
Pentagon, the World Trade Center, we were removing the wreckage 
from Pennsylvania, and we were burying 3,000 of our countrymen, 
we were asked to stand up the Air Marshal Service to make sure 
that that never happened again, and it hasn't.
    Now, I would like to take credit for that, as I told the 
Chairman yesterday, but I really can't. It really goes to the 
effort of the counterterrorism apparatus that this country has 
put in place. Now, we are a part of that apparatus, and 
together as a country, we have thwarted a lot of terrorist 
attacks. Some we were involved in and many more we weren't. I 
can tell you, it is known all over the world that we have 
Federal Air Marshals on these aircrafts. I can't point to a 
fact, Mr. Congressman, but I can assure you that that is 
something everyone one knows about, and I believe in some small 
way, that probably is why we haven't had something in this 
country since then. I know that wasn't your direct question, 
but that is my thought.
    Mr. Ratcliffe. Again, thanks for being here and thanks for 
the work that you do.
    My time has expired. I will yield back.
    Mr. Katko. Thank you, Mr. Ratcliffe. Just a quick follow-up 
question for the Chair, and we will take our brief recess and 
go to the second panel.
    You mentioned something with Miss Rice I just wanted to 
follow up on briefly. There has been a hiring freeze, I take 
it, at the Federal Air Marshal Service?
    Mr. Allison. Yes, sir. We haven't hired. Our last class was 
2011, after the Abdulmutallab attack. We ramped up, I think, to 
the tune of 4- or 500 Federal Air Marshals, but that was the 
last class we have had.
    Mr. Katko. Okay. So there was an increase, at that time, a 
block increase, but overall, there hasn't been any hiring in 
the last few years?
    Mr. Allison. No, sir.
    Mr. Katko. Now, you have approximately about an $800 
million budget?
    Mr. Allison. Yes, sir.
    Mr. Katko. If you are not having any additional hires since 
then, and the budgets remain relatively static, are you doing 
anything--what are you doing with the extra money? Because I 
know there is attrition, you are losing Marshals, and 
everything else. So what is happening with the additional 
money?
    Mr. Allison. Well, there are no additional funds, because 
the budget is planned in accordance with attrition.
    Mr. Katko. Okay. All right. So, now, do you have sufficient 
funding moving forward to have another class, or do you think 
another class is required and needs additional funding, or 
what?
    Mr. Allison. For this year, obviously, the process is still 
going on. From what the initial reports that I have seen, 
probably not this year. We are going to make another run for 
next year. We will submit here, through the Department, through 
OMB, to the Congress, a comprehensive report on what I believe, 
we believe, as a department what the size of the Federal Air 
Marshals should be. So that is coming up here very soon.
    Mr. Katko. Two quick questions, and I will be done. The 
first one is--actually, just one question moving forward. There 
has been some discussion by law enforcement circles that if 
other law enforcement personnel are on the flights, whether it 
is necessary to also have the Federal Air Marshal on those 
flights. Are you familiar with that suggestion, and how do you 
think it would work?
    Mr. Allison. Yes, sir. So when we first stood up the 
organization, we took a hard look at that. It really relies on 
us getting that data and that travel data and being able to 
plan towards it. So we do our scheduling to minimize the 
disruption of the airlines, starts 60 days in advance. So there 
are a lot of times when our FAMS are on flights, we have other 
law enforcement officials who, they are traveling and they made 
their reservations maybe days before. So we don't have the 
ability to sort-of look and plan around that.
    On a strategic level, we did look at that with respect to 
places where we see a large number of law enforcement officers 
and trusted travelers, and we reduced our coverage levels 
there. But individually by flight, it is sort-of challenging.
    Mr. Katko. Okay. The very last question, I promise. That 
is, what percentage of the overall population of employees of 
the Federal Air Marshal Service actually are Air Marshals in 
the air as opposed to administrative aspects that are on the 
ground?
    Mr. Allison. So out of the number of Federal Air Marshals, 
the overwhelming majority, I don't have a percentage for you, 
and I will get you one, are flying Federal Air Marshals or 
direct support, meaning, they work in the office; they do the 
operations, they do the training. When you go back to the 
operation center, we have Federal Air Marshals there. We have 
Federal Air Marshals that work on the joint vulnerability 
assessments, and our mission support staff, we are very lean in 
that respect.
    Mr. Katko. If you can get us those percentages, that would 
be great.
    I want to thank the witness for his testimony. It was very 
helpful. I want to thank the Members for their questions as 
well. We have a second panel coming up in a few moments, but 
the Members of the committee may have some additional questions 
for this witness. We will ask you to respond to these in 
writing, if you would, Mr. Allison. Pursuant to Committee Rule 
7(e), the hearing record will be open for an additional 10 
days.
    Without objection, this subcommittee stands adjourned for a 
very brief recess.
    [Recess.]
    Mr. Katko. We are back in session, and the Chair will now 
introduce our witness for the second panel.
    Our second witness is Captain Tim Canoll, who began serving 
as the tenth president of the Air Line Pilots Association 
International in January 2015. As ALPA's chief executive 
administrative officer, Captain Canoll presides over the 
meetings of the association's governing bodies and oversees 
daily operations of the association.
    The Chair now recognizes Captain Canoll to testify.

STATEMENT OF TIM CANOLL, PRESIDENT, AIR LINE PILOTS ASSOCIATION

    Mr. Canoll. Good morning, Chairman Katko and Congressman 
Payne. I am Captain Tim Canoll, president of the Air Line 
Pilots Association International. ALPA represents more than 
52,000 pilots who fly for 31 passenger and all cargo airlines 
in the United States and Canada. Thank you for inviting me here 
today.
    For several decades, ALPA pilots have had a strong 
relationship with the Federal Air Marshal Service. ALPA leaders 
meet on a regular basis with the FAMS to ensure we have the 
most current and accurate understanding of their roles, 
responsibilities, training, and methods. We focus in particular 
on learning how FAMS interface with flight crew members like me 
when we fly the line. Throughout the FAMS' history, ALPA 
members have been deeply impressed by the professionalism of 
the individual Air Marshals and the dedication of the program's 
leaders, including Assistant Administrator Allison.
    Every day FAMS put their lives at risk to safeguard the 
passengers and crew members on their flights. For that, ALPA 
and its members are and will always be extremely grateful. In 
ALPA's view, flying U.S. airliners with highly-trained anti-
terrorism experts aboard is immensely valuable. These 
professionals are not only capable of defending the flight 
deck, they also serve as a powerful deterrent to anyone who 
might contemplate hijacking an airline flight.
    The TSA has adopted a risk-based security philosophy for 
many of its programs. The Federal Air Marshal Service embodies 
a risk-based approach to aviation security.
    On this same theme, the Federal Flight Deck Officer program 
also serves as another critical layer of protection and 
contributes to the risk-based approach to security.
    In the wake of the terrorist attacks of 9/11, ALPA 
conceived of and advocated for the FFDO program which became a 
reality when Congress passed the Arming Pilots Against 
Terrorism Act in 2002. FFDOs are airline pilots who voluntarily 
undergo very thorough screening and training by the TSA. Once 
qualified, these individuals are then deputized before assuming 
responsibilities for protecting the cockpit. In the 12 years 
since the first FFDOs were deputized in 2003, thousands of 
pilots who fly passenger and all cargo airlines have 
volunteered to become FFDOs. They protect the cockpit on about 
1 million flight segments each year.
    In addition, FFDOs volunteer their personal time to receive 
the training required to join the program, and many pay of 
their own expense. FFDOs are the last line of defense in 
protecting the cockpit. Like FAMS, FFDOs provide passengers, 
cargo shippers, and flight crew with a critical additional 
layer of security. ALPA applauds the many supporters of the 
FFDO program in the Congress, and particularly those in this 
committee. We believe that the funding level agreed on by 
Congress is adequate now for the TSA to continue to train new 
FFDOs while providing the management and oversight required. 
The FFDO program is a successful, efficient, and effective 
program, and should be expanded to meet our risk-based security 
objectives.
    ALPA also commends the FFDO program's current oversight 
authority, the Office of Training and Workforce Engagement, for 
setting the stage for the program's continued success. OTWE has 
given ALPA members the opportunity to observe the most current 
training methods and procedures, and to provide airline pilots' 
perspectives. OTWE has been very responsive to ALPA's feedback. 
We look forward to continue to work closely with them.
    Finally, since we are focused on the overall security of 
airline operations, I would be remiss if I did not underscore 
ALPA's strong support for installing secondary cockpit barriers 
on passenger airliners as another essential layer of security. 
I would be pleased to discuss the details of how they work for 
your interested subcommittee Members.
    Simply put, secondary cockpit barriers create a common-
sense additional layer of security by protecting the cockpit 
when the hardened door must be opened. Installing secondary 
cockpit barriers on passenger airlines would be an important 
security enhancement for many reasons, not the least of which 
is that FAMS and FFDOs would benefit from this additional layer 
of security as part of the multi-layer proactive strategy.
    At ALPA, we are committed to advancing aviation security to 
protect our passengers, our cargo, and our flight crews. We 
appreciate this subcommittee's shared interest in exploring new 
ways to make a secure air transportation system even more 
secure.
    Thank you for this opportunity to be here today.
    [The prepared statement of Mr. Canoll follows:]
                    Prepared Statement of Tim Canoll
                             July 16, 2015
    Good morning, Mr. Chairman and Members of the subcommittee. I am 
Captain Tim Canoll, president of the Air Line Pilots Association, 
International (ALPA). ALPA represents over 52,000 pilots who fly for 31 
passenger and all-cargo airlines in the United States and Canada. On 
behalf of our members, I want to thank you for the opportunity to 
provide our perspectives on the Federal Air Marshal Service, which 
provides an important layer of aviation security.
    ALPA has a decades-old relationship with the Federal Air Marshal 
Service (FAMS) which dates back long before it was part of the TSA and 
even before it was overseen by the Federal Aviation Administration. 
Historically, ALPA and FAMS leadership have met multiple times over the 
years, we have observed their training methods at their facilities and 
engaged with them on a regular basis to better understand their roles, 
responsibilities, methods, and other aspects of their work and how 
their role interfaces with our flight crew members. We are impressed by 
the professionalism of the individuals whom we have known through the 
years, which certainly includes Rod Allison, who currently heads the 
FAMS organization. As just one indicator of their professionalism, 
FAMS' demonstrated marksmanship skills are among the very best of any 
law enforcement agency in this country, which is certainly a needed 
skill in the very tightly-confined space of a crowded aircraft cabin.
    The work of a FAM within the aviation domain is a difficult, 
thankless job. It mostly consists of long hours traveling on airliners, 
endeavoring to maintain a low profile while still keeping high 
situational awareness and being prepared to react on a moment's notice 
to any disturbance which could threaten the flight. FAMS put their 
lives at risk on behalf of the passengers and crewmembers on-board 
their flights on a daily basis, and for that, ALPA and its members are 
most grateful.
    Although the FAMS cadre had numbered into the thousands prior to 
the 9/11 attacks, there were only 33 of them in September 2001, 
according to the 911 Commission Report. FAMS were being used to protect 
international flights exclusively, except when they were required to 
travel on a domestic leg to get to an international flight. The 
Government's rationale behind this arrangement at the time was that 
domestic travel was quite safe from hijackings, as there had been none 
of a U.S. airliner since 1986.
    After 9/11, the program grew very quickly to several thousand FAMS 
and they were assigned to international and domestic flights, as they 
still are today. In our view, there continues to be great value in 
having highly trained anti-terrorism experts on-board U.S. commercial 
aircraft. They are not only capable of defending the flight deck, they 
serve as a strong deterrent to anyone who might consider hijacking a 
commercial flight. TSA has adopted a risk-based security (RBS) 
philosophy for many of its programs--the FAM program may also benefit 
from adopting a greater RBS focus than it currently has, which could 
result in greater efficiencies and effectiveness.
    A complement to the FAM program is the Federal Flight Deck Officer 
(FFDO) program. FFDOs are airline pilots who voluntarily undergo a very 
thorough screening and qualification process and then submit to being 
trained by the TSA and assume responsibility for protecting the flight 
deck with lethal force. ALPA conceived of and successfully advocated 
for the creation of the program, which became a reality when the Arming 
Pilots Against Terrorism Act (APATA) was enacted as part of the 
Homeland Security Act of 2002. In response to that Congressional 
mandate, ALPA assisted the TSA in designing and implementing the FFDO 
program.
    In April 2003, the first 44 airline pilots graduated from the 
Federal Law Enforcement Training Center (FLETC) in Glynco, GA and were 
deputized as the Nation's first FFDOs. Since then, thousands more 
pilots who fly for passenger and all-cargo airlines have volunteered to 
become FFDOs. They protect the flight decks of our Nation's airliners 
on about 1 million flight segments per year, all within a budget of 
roughly $25 million dollars per year, or about $25 per protected 
flight.
    FFDOs volunteer their personal time in order to receive the 
training required to become part of the program, and pay some of the 
related expenses as well. Because of its volunteer ``work force,'' the 
FFDO program may well be the most cost-effective, Federally-funded 
program in the country. FFDOs are the last line of defense in 
protecting the flight decks of our Nation's airliners. A fully trained 
and armed pilot in the cockpit provides a strong deterrent against the 
potential for terrorist acts and helps ensure that our airplanes will 
never again be used as guided weapons. The thousands of FFDOs have 
protected millions of airline flights since the inception of the 
program and, like FAMS, FFDOs provide an additional layer of security 
to our Nation's aviation system.
    We applaud the supporters of the FFDO program in Congress and 
particularly those from this subcommittee. There are some within 
Government who have endeavored to reduce its relatively small funding 
level or zero it out completely, but we have been very gratified to 
work with numerous representatives who are steadfast in their support 
for the program. The funding level that Congress has agreed upon, $22.3 
million, is enough for the TSA to continue to train new FFDOs and 
provide management and oversight the program needs. ALPA would like to 
encourage this subcommittee to continue its support of appropriate 
levels of funding for this highly efficient program.
    Last year, TSA placed the FFDO program under the oversight of its 
Office of Training and Workforce Engagement (OTWE) and, to date, that 
branch of the agency has exhibited a strong desire to ensure that the 
program grows and thrives. We have worked closely with the program's 
leadership since that change--in fact, several ALPA representatives are 
attending a quarterly FFDO working group meeting that OTWE convened 
this week in Artesia, New Mexico. That meeting will give our 
representatives and other Government and industry attendees an 
opportunity to observe the most current FFDO training methods and 
procedures and provide input on any areas of concern. OTWE has been 
very responsive to issues that we and other industry organizations have 
raised regarding management, resources, communications, and other 
areas.
    Although not specifically part of this hearing, I would be remiss 
if I did not reiterate ALPA's strong support for installing secondary 
barriers on passenger aircraft. FAMS and FFDOs would benefit from 
having this additional layer of security on-board to help them protect 
the flight deck whenever the hardened cockpit door must be opened. The 
key to any multi-faceted, multi-layered safety plan is to be proactive 
and not reactive. We need to be mindful of the ever-emerging threats 
that face our Nation and not get complacent in our defense against 
terrorism. More can always be done and frequent changes, adjustments, 
and improvements will help protect our Nation's flight decks from 
future attacks.
    Thank you for your interest. I would be pleased to take any 
questions that you may have.

    Mr. Katko. Well, thank you, Captain.
    The Chair now recognizes himself for 5 minutes of 
questions. Let's start out with the secondary barrier issue. 
There have been some people advocating for a secondary barrier 
for cockpit doors. I know when I am on the airplane now I 
always notice the flight attendant turning the cart sideways 
and standing behind that cart when someone comes out of the 
cockpit door, even for a moment.
    There has been some question whether a secondary barrier is 
necessary given all that and given how quickly you come in and 
out of the cockpit. I just wanted you to comment on that and 
tell me, by way of background, whether there has been any 
attempts to rush the door that you are aware of since 9/11.
    Mr. Canoll. So I am not prepared to speak to exactly how 
many rush-the-door issues or incidents that there have been, 
but they have occurred. The door is an excellent door. It is 
very well-fortified, and it is completely deployed. It is 
everywhere. But the one vulnerability is this period of time 
when you have to leave for essential purposes, either passing 
meals or to access the bathroom on the aircraft, even if it is 
for a very short period of time, and we take steps to make sure 
that it is for the shortest period possible. That period is 
when we are most vulnerable.
    The installing of a very cost-effective secondary barrier, 
and we are talking $5,000 to $12,000 per aircraft, once 
installed, installed forever, and there is no operating cost of 
it, you can almost completely if not completely eliminate that 
risky period of time.
    Mr. Katko. Do you have any idea what they look like? I 
mean, I have seen some renderings, but is it a full door? Is it 
just a screen or what is it?
    Mr. Canoll. Yes, sir. It is a wire mesh, retractable, 
light-weight, and it is inexpensive, as I mentioned. It goes 
from the floor to the ceiling of the cabin, and it is installed 
after the cockpit door but before the passenger cabin. So as 
you enter an aircraft, normally you will see the cockpit door 
to your left as you enter and then you turn right to go gown 
the aisle or two aisles of the cabin. It is in that period 
where you would make your right turn near the galley normally 
installed in the front area. It is unobtrusive. Often you 
wouldn't see it unless it is deployed.
    Mr. Katko. Now, I want to switch gears a bit and talk about 
the Federal Air Marshal Service and the relationship with the 
airline pilots that you are aware of. Now, it seems like you 
enjoy a pretty good relationship, but is there any concerns 
about the conduct of the Federal Air Marshal Service or ways we 
can improve it going forward?
    Mr. Canoll. So we have no concerns over the conduct in the 
Air Marshal Service whatsoever. I think a part of aviation 
safety and security is always seeking better ways to do 
business. So while we are satisfied we have good communications 
procedures through OTWE and out there on the line flying the 
aircraft, we know we can do better, and we are constantly 
looking for those better ways to do it.
    Mr. Katko. Okay. What better ways would you say? How can we 
improve the Air Marshal Service? Is it more bodies in the seats 
or is it better training for them or what?
    Mr. Canoll. Well, I think one way would be actually to 
expand the FFDO program. The FFDO program is an amplifier for 
the Federal Air Marshal Service in that the coordination of 
coverage on flights is executed at the TSA. So if you are 
covering more flights with FFDOs, then you have the capability 
of covering more critical flights with the current cadre of 
FAMS.
    Mr. Katko. Now, when you say expand the FFDO, what is 
preventing you from doing that?
    Mr. Canoll. Well, currently our budget is around $25 
million, and that is adequate, as I mentioned in my testimony. 
We would like to see the opportunity to expand to entice every 
pilot who wished to become an FFDO to become an FFDO.
    Mr. Katko. Are there pilots who want to become FFDOs who 
are not able to because of budgetary constraints?
    Mr. Canoll. It is my understanding there are FFDOs on the 
waiting list. Yes, sir.
    Mr. Katko. Do you know how long the waiting list is?
    Mr. Canoll. I do not, but I will get that to your office.
    Mr. Katko. Yeah. I would appreciate that. I think that 
would be very instructive for me.
    Because if there is something--if there are pilots that are 
desiring to do this and it is a question of funding, then that 
should not be a question moving forward. We should do what we 
have to do to make that happen because, to me, that is 
important going forward.
    Now, can you tell me approximately what percentage of 
airline pilots have the FFDO certification?
    Mr. Canoll. So I have always wanted to say this in front of 
Congress. I can't confirm or deny how many there are, sir.
    Mr. Katko. Aren't you cool?
    Mr. Canoll. It is confidential. So, unfortunately, I can't 
tell you that. I don't even know, sir.
    Mr. Katko. Okay. Well, at some point perhaps in a more 
secure setting you could advise us.
    Mr. Canoll. Yes, sir.
    Mr. Katko. I do think it is another layer of security that 
is an important deterrent. So if there is something we can do 
to help you enhance that, we would certainly be interested in 
trying to do that.
    The last thing is somewhat far afield of the subject of 
today, but since I have a few seconds I will ask it. What 
happened with the German airlines with the pilot going bad, and 
is there ways that we can examine to try and help you prevent 
that from happening in this country with our airlines?
    Mr. Canoll. So as you know, airline pilots are subject to 
physical examination in that there is an element of mental 
evaluation. The FAA has stood up an aviation rulemaking 
committee to examine the current processes we use for this 
element. At the Air Line Pilot Association, we really have had 
programs in place for many, many years. We have not only 
substance abuse programs, but we have professional standards 
committees that monitor peer-to-peer within the program. We 
have pilot assistance programs where pilots can access hotlines 
24/7 to express their angst, whether it be a family matter or 
personal matter or financial matter.
    We feel these programs have been very effective, as 
evidenced by this exceptionally rare incident. But we are part 
of the solution going forward in trying to examine what else we 
can do.
    Mr. Katko. Well, I look forward to hearing the results of 
that because, to me, if there is something we can do to help 
you with that, we certainly would be interested in doing so.
    I am out of time, sir. I appreciate your questions, and now 
I will refer to my Ranking Minority Member, Mr. Payne from New 
Jersey.
    Mr. Payne. Thank you, Mr. Chairman. You know, as usual, we 
are on the same page and the same thought. I was going to ask 
that same question in reference to the German incident. So it 
has kind of stole my thunder.
    But, Captain Canoll, we are really delighted to have you 
here this morning to testify before us. Your credentials are 
second-to-none as we look at them, and just definitely consider 
you an expert in this area.
    I want to ask you about the screening process for 
applicants into the Federal Flight Deck Officers program. Are 
there any prerequisites for applying, such as tenure or flight 
hours?
    Mr. Canoll. Thank you, Congressman. So the prerequisites 
that I am about to describe are over and above the 
prerequisites that you would have to maintain to be an active 
air transport category pilot, and that would be the physical 
and testing requirements to be in the cockpit.
    The volunteers, through an on-line process, submit a 
voluntary questionnaire which is extensive. Then there is an 
in-person interview conducted with those who get through that 
first level, and then there is a background check of those who 
are conditionally accepted.
    The program training is essentially 1 week in length. They 
arrive on Sunday, they depart on Saturday, and in any given 5-
year point, they need to be able to look back and find that 
they have either completed initial training or recurrent 
training, and twice a year they complete firearms training to 
maintain their qualification at all times.
    Mr. Payne. Okay. How has the training undergone by FFDOs 
been tailored to address the evolving threats with aviation 
security?
    Mr. Canoll. So as I mentioned before, all of aviation, both 
in the cockpit and in design and in the FFDO program, is an 
evolving training process. It changes in each cycle. I am not 
familiar with the actual recent changes they have made. They 
are, of course, not for public consumption, but they do evolve 
each training cycle so that the FFDOs are receiving the most 
current thoughts from the FAMS, and also all of TSA, on tactics 
that they use.
    Mr. Payne. Are there any incentives that could be created 
to encourage enrolling into the FFDO program?
    Mr. Canoll. Yes, sir. Currently, the FFDO program--there 
are a few elements here. First off, we do not have widespread 
or it actually is extremely limited international carriage 
capability for our FFDOs. So they don't deploy on international 
flights. In our larger airlines, pilots transfer in and out of 
international categories, even sometimes within a daily basis 
international. So if we could work with the Department of State 
to expand our ability to travel internationally, as a FAM does, 
with our weapon, that would be helpful.
    We also believe that the requirement for the employer to 
provide leaves of absence for the FFDO to attend training would 
be helpful as well. Currently now you just have to coordinate 
it through your off schedule.
    Finally, any assistance we could get for FFDOs to offset 
the expenses they incur in travel and in practice ammunition 
would be helpful as well. As you know, FFDOs receive no 
remuneration for service.
    Mr. Payne. Okay. Just for us, please detail the way the 
FFDOs communicate with FAMS to address vulnerabilities within 
commercial flights.
    Mr. Canoll. So from a broad perspective, the FFDO program 
coordinates with the TSA, and so does the FAM program. I am not 
familiar exactly within the bureaucracy of the cross-
communication between OTWE and Assistant Administrator 
Allison's department, but we are satisfied that it does take 
place, evidenced by the very quick reaction we get from OTWE on 
all our concerns.
    Mr. Payne. Okay. Well, I appreciate your testimony and you 
being available to answer the questions. With that, Mr. 
Chairman, I will yield back.
    Mr. Katko. Thank you, Mr. Payne.
    I have one quick follow-up question I neglected to ask, and 
that was comparing the current safety strategy that is in place 
absent the secondary barrier, and that is turning the cart 
sideways and having a person behind it versus the secondary 
barrier, could you tell me the degree of difference you think 
there is in the security when a pilot is coming out of the 
cockpit?
    Mr. Canoll. I never really contemplated putting a 
mathematical measurement on it.
    Mr. Katko. I don't need a mathematical measurement. What 
are your concerns with the current way they are doing it?
    Mr. Canoll. Well, I mean, without getting into our common 
strategy elements, I think even the most uneducated passenger 
can see that a simple drink cart isn't nearly as obstructive as 
a floor-to-ceiling wire mesh. The drink cart is guarded by a 
fight attendant which also isn't nearly as strong as a wire 
mesh.
    So I think it is intuitive that if you have a wire mesh, 
you are going to have zero capability to get through that in 
the time the door is open. The drink cart has wheels. It is 
meant to move. It is meant to move. It only comes up about 
waist level. So there are some serious considerations there. I 
don't think you could find anyone who would argue that the wire 
mesh--a physical barrier is far more secure.
    Mr. Katko. Now, I have done a lot of hearings this year, 
and I have never asked this question, but since we have a few 
moments, is there anything that we haven't touched on that you 
wish we did or anything else you would like to raise before you 
conclude your testimony?
    Mr. Canoll. I think we have been very efficient in our 
time.
    Mr. Katko. I think so too.
    Mr. Canoll. You know, I think the program is running very, 
very well, in summary. I think I would like to see an expansion 
of the program, as you mentioned, Mr. Chairman. I think it 
would work well, and it has been since 2001--we had secondary 
barriers in our agenda as something we wanted to see in our 
aircraft as a real enhancement to our security.
    We had some voluntary compliance, but in the last 7 to 8 
years, it has waned to zero. No one is installing them because 
there is no requirement. So if we could find a way to work a 
requirement in, and it doesn't have to be a requirement to have 
them installed by the end of the year on every aircraft. We can 
phase this in over a longer period of time. That is the single 
best enhancement we could do.
    Mr. Katko. Okay. I appreciate your time. As far as Federal 
Flight Deck Officers program, if there is any information you 
want to submit to the committee, we would be happy to take a 
look at it and see what we can do.
    Mr. Canoll. Thank you, sir.
    Mr. Katko. All right. I want to thank you for your 
testimony, and I want to thank Mr. Payne for his questions. The 
Members of the committee may have some additional questions for 
you, and we will ask you to respond to these in writing.
    Pursuant to committee rule 7(e) of the hearing, the hearing 
record will be open for 10 days. Without objection, the 
subcommittee stands adjourned. Thank you for your time, sir.
    Mr. Canoll. Thank you.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
